AUDIT REPORT 96-13
IMMIGRATION AND NATURALIZATION SERVICE
FORECASTING FOR FEE ACCOUNTS
Audit Report 96-13, (5/96)
TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
BACKGROUND
FINDINGS AND RECOMMENDATIONS
I. FORECASTING METHODS
User Fee
Examinations Fee
Legalization Fee
Land Border Fee
Overall Effectiveness
RECOMMENDATIONS
USER FEE FORECAST
Forecasting Effectiveness
RECOMMENDATION
EXAMINATIONS FEE FORECAST
Forecast Effectiveness
LEGALIZATION FEE FORECAST
Forecast Effectiveness
LAND BORDER FEE
Forecast Effectiveness
RECOMMENDATION
II. REPROGRAMMINGS
RECOMMENDATION
OTHER MATTERS
Non-approved Fees
Strategic Budgeting
APPENDICES
APPENDIX I -- SCOPE AND METHODOLOGY
APPENDIX II -- ADDITIONAL BACKGROUND
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS AND
REGULATIONS
#####